NO. 19-516
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2019
♦
NOLAN ESPINDA,
Hawaii Department of Public Safety Director, et al.
Petitioners
- vs ROYCE C. GOUVEIA
Respondent
♦
CERTIFICATE OF SERVICE
I, PETER C. WOLFF, JR. certify pursuant to Rules 29.3 and 29.4 of the Rules
of the Supreme Court of the United States that I am member of the Bar of the
Supreme Court of the United States and an attorney appointed under the Criminal
Justice Act of 1964, see 18 U.S.C. §3006A, and that on October 31, 2019, the Brief
in Opposition and Motion to Proceed In Forma Pauperis in the above-entitled case
was electronically filed in the Supreme Court of the United States, copies sent
through the United States Postal Service by first-class mail, postage prepaid, and
with additional copies of said pleading for email to the following, and an electronic
version was emailed to supremectbriefs@usdoj.gov:

